No. 20In the

Supreme Court of the United States
SERVOTRONICS, INC.,
Petitioner,
v.
ROLLS-ROYCE PLC AND THE BOEING COMPANY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
K aren Kies DeGrand
Michael H. A dler
Donohue Brown Mathewson
& Smyth LLC
140 South Dearborn Street,
Suite 800
Chicago, IL 60603
(312) 422-0910

Stephen R. Stegich
Counsel of Record
K atherine B. Posner
David P. Yates
Condon & Forsyth
Times Square Tower
Seven Times Square
New York, New York 10036
(212) 490-9100
sstegich@condonlaw.com

Counsel for Petitioner
300447

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the discretion granted to district courts
in 28 U.S.C. §1782(a) to render assistance in gathering
evidence for use in “a foreign or international tribunal”
encompasses private commercial arbitral tribunals, as
the Fourth and Sixth Circuits have held, or excludes such
tribunals without expressing an exclusionary intent, as
the Second, Fifth, and, in the case below, the Seventh
Circuit, have held.

ii
PARTIES TO THE PROCEEDING
Petitioner Servotronics, Inc., was the PetitionerAppellant below.
Respondents Rolls-Royce PLC and The Boeing
Company were Intervenors-Appellees below.

iii
RULE 29.6 STATEMENT
Petitioner Servotronics, Inc., hereby states that it has
no parent corporation and no publicly held company owns
10% or more of its stock.

iv
RELATED PROCEEDINGS
In the United States Court of Appeals for the Seventh
Circuit:
Docket No. 19 -18 47, Ser votronics , Inc.,
Petitioner-Appellant v. Rolls-Royce PLC and
The Boeing Company, Intervenors-Appellees
Judgment Entered: September 22, 2020
In the United States District Court for the Northern
District of Illinois:
Civil Docket No. 1:18-cv-07187
Judgment Entered: April 22, 2019

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. The Underlying Claim and Proceedings
Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
C. The Intel Decision  . . . . . . . . . . . . . . . . . . . . . . . . . 6
D. The Post-Intel Circuit Split  . . . . . . . . . . . . . . . . . 9

vi
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . 12
I.

The Courts of Appeals Are Divided on the
Question Presented and Will Remain So
Without this Court’s Review  . . . . . . . . . . . . . . . 12

II. The Present Case Is Ideally Suited to
Resolving the Question Presented  . . . . . . . . . . 13
III. T h e S e v e n t h C i r c u i t I n c o r r e c t l y
Decided the Question Presented Due to
Misapplication of Time-Honored Canons
of Statutory Construction  . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
SEPTEMBER 22, 2020  . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, FILED
APRIL 22, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17a
APPENDIX C — STATUTE . . . . . . . . . . . . . . . . . . . . 26a

viii
TABLE OF CITED AUTHORITIES
Page
FEDERAL CASES
Abdul Latif Jameel Transp. Co. v. FedEx Corp.,
939 F.3d 710 (6th Cir. 2019)  . . . . . . . . . . . .  9, 14, 15, 17
In re Babcock Borsig AG,
583 F. Supp. 2d 233 (D. Mass. 2008) . . . . . . . . . . . . . . 9
Bernhardt v. Polygraphic Co. of America,
350 U.S. 198 (1956)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
City of Chicago v. Env’t Defense Fund,
511 U.S. 328 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
In re CMPC Cellulose Riograndense LTDA,
Docket No. 19-MC-00005 WES,
2019 WL 2995950 (D. R. I. July 9, 2019)  . . . . . . . . . 12
Conn. Nat’l Bank v. Germain,
503 U.S. 249 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Consorcio Ecuatoriano de Telecomunicaciones
S.A. v. JAS Forwarding (USA), Inc.,
685 F.3d 987 (11th Cir. 2012), vacated and
superseded, 747 F.3d 1262 (11th Cir. 2014) . . . . . . . . . 9
El Paso Corp. v. La Comision Ejecutiva
Hidroelectrica del Rio Lempa,
341 F. App’x 31 (5th Cir. 2009) . . . . . . . . . . . . . . . . . . 11

ix
Cited Authorities
Page
In re EWE Gassepeicher GMBH,
Docket No. 19-mc-109-RGA, 2020 WL 1272612
(D. Del. March 17, 2020), appeal docketed,
No. 20-1830 (3d Cir. April 24, 2020) . . . . . . . . . . . . . 11
In re Hallmark Cap. Corp.,
534 F. Supp. 2d 951 (D. Minn. 2007) . . . . . . . . . . . . . . 9
Hanwei Guo v. Deutsche Bank Sec.,
965 F.3d 96 (2d Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 11
HRC-Hainan Holding Company LLC v.
Yihan Hu,
Docket No. 19-mc-80277-TSH, 2020 WL 906719
(N.D. Cal. Feb. 25, 2020), appeal docketed sub
nom., In re HRC-Hainan Holding Company LLC,
No. 20-15371 (9th Cir. March 4, 2020). . . . . . . . . . . . 11
Intel Corp. v. Advanced Micro Devices,
542 U.S. 241 (2004) . . . . . . . . . . . . . . . . . . . . . . . passim
In re Letter of Request from the Crown
Prosecution Serv.,
870 F.2d 686 (D.C. Cir. 1989) . . . . . . . . . . . . . . . . . . . . 8
Maxwell v. Moore,
63 U.S. (1 Wall.) 185 (1859) . . . . . . . . . . . . . . . . . . . . . 15
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

x
Cited Authorities
Page
Nat’l Broadcasting Co. v. Bear Stearns & Co.,
165 F.3d 184 (2d Cir. 1999) . . . . . . . . . . . . . . . . . passim
In re Operadora DB Mexico,
Docket No. 6:09-cv-383-Orl-22GJK,
2009 WL 2423138 (M.D. Fla. Aug. 4, 2009) . . . . . . . 12
Republic of Kazakhstan v. Biedermann Int’l,
168 F.3d 880 (5th Cir. 1999) . . . . . . . . . . . . . . . . passim
In re Roz Trading Ltd.,
469 F. Supp. 2d 1221 (N.D. Ga. 2006) . . . . . . . . . . . . . 9
Servotronics, Inc. v. Boeing Co.,
954 F.3d 209 (4th Cir. 2019) . . . . . . . . . . . . . . . . passim
Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020) . . . . . . . . . . . . . . . 3, 11, 13
U. S. v. Turkette,
452 U.S. 576 (1981)  . . . . . . . . . . . . . . . . . . . . . . . .  14, 17
In re Winning (HK) Shipping Co.,
Docket No. 09-22659-MC, 2010 WL 1796579
(S.D. Fla. April 30, 2010)  . . . . . . . . . . . . . . . . . . . . . . 12
STATE CASES
Henry v. Lehigh Valley Coal Co.,
215 Pa. 448, 64 A. 635 (1906) . . . . . . . . . . . . . . . . . . . 14

xi
Cited Authorities
Page
Montgomery Cty. Comm’rs v. Carey,
1 Ohio St. 463 (1853) . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Susong v. Jack,
48 Tenn. 415 (1870)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
FEDERAL STATUTES
22 U.S.C. §§ 270-270g, Act of July 3, 1930, ch. 851,
§§ 1-4, 46 Stat. 1005, 1006, Amendment of June 7,
1933, ch. 50, 48 Stat. 117, 118 (repealed 1964) . . . . . 16
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1782  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Hans Smit, American Assistance to Litigation in
Foreign and International Tribunals: Section
1782 of Title 28 of the U.S.C. Revisited, 25
Syracuse J. Int’l L. & Comm. 1 (Spring 1998)  . . . . 6, 8
Hans Smit, International Litigation Under the
United States Code, 65 Colum. L. Rev. 1015
(1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8
S. Rep. No. 88-1580 (1964), as reprinted in
1964 U.S.C.C.A.N. 3782 . . . . . . . . . . . . . . . . . . . . . . . 16

1
Petitioner Servotronics respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Seventh Circuit in this
case.
OPINIONS BELOW
The opinion of the Seventh Circuit Court of Appeals,
reported at 975 F.3d 689, is reprinted in the Appendix
(Pet. App.) at 1a. The opinion of the Northern District of
Illinois was not published in the Federal Supplement but
is available at 2019 WL 9698535; it is reprinted at Pet.
App. 17a.
JURISDICTION
The judgment was entered on September 22, 2020.
This Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISION INVOLVED
Title 28 of the United States Code, Section 1782 is
reproduced in the Appendix at Pet. App. 26a. Section
1782(a) of Title 28 provides, in relevant part:
The district court of the district in which a
person resides or is found may order him to
give his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or international tribunal….

2
STATEMENT OF THE CASE
A. Introduction
Section 1782 of Title 28 of the United States Code
embodies a more than 150-year Congressional policy
of facilitating cooperation with foreign countries by
providing the assistance of federal district courts in
gathering evidence for use in foreign tribunals. Intel
Corp. v. Advanced Micro Devices, 542 U.S. 241, 247 (2004)
(“Intel”). Prompted by a growth in international commerce,
Congress created a Commission on International Rules
of Procedure in 1958 to study then-existing practices of
judicial assistance between the United States and foreign
countries with a view toward achieving improvements.
Congress adopted this Commission’s recommendation of
a complete revision of Section 1782 unanimously in 1964.
This marked a substantial expansion of the statute’s scope
by providing for assistance in obtaining documentary
and other tangible evidence as well as testimony and
by replacing the words “in any judicial proceeding
pending in any court in a foreign country” with the
significantly broader phrase “in a proceeding in a foreign
or international tribunal.” The accompanying Senate
Report explains that Congress used the word “tribunal”
to ensure that assistance is not confined to conventional
courts, but instead extends to administrative and quasijudicial proceedings. Id. at 248-49. Despite this clear
expression of Congressional intent to expand assistance
to include quasi-judicial proceedings, and this Court’s
thorough analysis of that expansive intent in Intel, the
Circuit Courts of Appeals are split on the issue of whether
an exception of one particular type of quasi-judicial
proceedings—private commercial arbitrations—should
be read into Section 1782.

3
The stark division in interpretation of Section 1782 and
the uncertainty it engenders have been brought into sharp
relief in the two circuit court opinions rendered by the
Fourth and Seventh Circuits in connection with a single
arbitration pending before an English arbitral tribunal
to which Petitioner is a party. Following the reasoning
in Intel, the Fourth Circuit granted Petitioner’s Section
1782 request to depose Boeing personnel who have firsthand knowledge of the incident that forms the basis of the
claims asserted against Petitioner in the arbitration, which
took place in South Carolina. Servotronics, Inc. v. Boeing
Co., 954 F.3d 209, 210 (4th Cir. 2019). The Seventh Circuit
denied Petitioner’s Section 1782 request to subpoena
documents critical to the arbitration from Boeing at its
headquarters in Chicago. Servotronics, Inc., v. Rolls
Royce, 975 F.3d 689, 690 (7th Cir. 2020). The decision in
the Seventh Circuit is the subject of this Petition.
B. The Underlying Claim and Proceedings Below
Servotronics is the respondent in an arbitration
proceeding commenced by Rolls-Royce in London,
England. The arbitration arose from a January 16, 2016,
aircraft engine tail pipe fire that occurred during the
course of Customer Demonstration and Acceptance Flight
Tests at a Boeing facility in South Carolina. Rolls-Royce
manufactured the Trent 1000 engine damaged by the fire
and installed on the Boeing 787-9 Dreamliner aircraft
that was the subject of the flight tests. Servotronics
manufactured a Metering Valve Servo Valve component
of the engine.
Representatives of Boeing, Rolls-Royce, and Boeing’s
customer (Virgin Atlantic Airways) attended the testing.
No representative of Servotronics witnessed the event.

4
Testing on the day of the incident revealed a disruption
in the aircraft’s fuel flow, warning signs for which had been
observed but not investigated or properly documented prior
to and during tests on the day of the fire. Personnel on the
scene responded to the disruption by “troubleshooting”
the engine. During the final troubleshooting, a fire ignited
in the tail pipe of the engine which caused damage to the
engine and aircraft. Boeing sought compensation from
Rolls-Royce for damage to the aircraft. Rolls-Royce and
its insurers settled the claim with Boeing for over $12
million, without Servotronics’ participation.
Rolls-Royce has taken the position that it is entitled to
reimbursement from Servotronics, in response to which
Servotronics has cited failures on the part of Boeing and
Rolls-Royce personnel to follow their own procedures
for the proper response to warning signs of fuel flow
issues that would have averted the fire. After settlement
and mediation efforts failed, Rolls-Royce commenced an
arbitration proceeding under the Rules of the Chartered
Institute of Arbitrators in England in accordance with
the dispute resolution provisions of the applicable RollsRoyce/Servotronics Long Term Agreement.
The parties exchanged some documents and other
materials, but Rolls-Royce and Boeing refused to
produce materials that are critical to Servotronics’
causation defense. Because of unresolved discovery issues,
Servotronics filed an ex parte application pursuant to
Section 1782 for leave to serve a document subpoena on
Boeing in the Northern District of Illinois, where it is
headquartered and an application in the District of South
Carolina to depose three Boeing employees involved in the
event and the following investigation by Boeing.

5
The district court in the Northern District of Illinois
granted the application to serve the document subpoena.
After its service, Rolls-Royce filed a successful motion to
intervene, vacate, and quash, in which Boeing joined. The
Seventh Circuit affirmed the order.
Boeing’s objection to the subpoena relied primarily
on the Second Circuit’s narrow interpretation of Section
1782 in National Broadcasting Co. v. Bear Stearns &
Co., 165 F.3d 184 (2d Cir. 1999). Specifically, the Second
Circuit determined that the undefined term “foreign or
international tribunal” appearing in Section 1782(a) “does
not unambiguously exclude private arbitration panels”
but the fact that the term is broad enough to include
both state-sponsored and private tribunals nevertheless
fails to mandate a conclusion that, as used in the statute,
such term does include both. Bear Stearns, 165 F.3d at
188 (emphasis in original). Having found an ambiguity,
the court then reviewed the legislative history and
concluded that “the absence of any reference to private
dispute resolution proceedings strongly suggests that
Congress did not consider them in drafting the statute.”
Id. at 189. The Second Circuit cited “contemporaneous
academic literature” but at the same time dismissed
as “unpersuasive” a later article in which Columbia
Law Professor Hans Smit, who was instrumental in
crafting the language of the statute, stated that the term
private arbitral tribunals clearly comes within the term
“tribunal” used in Section 1782.1 Boeing also relied on
1. Professor Smit was a reporter to the Commission on
International Rules of Procedure that recommended the statutory
language which garnered the unanimous approval of Congress.
His original article on the statute, published a year after Section
1782 became law, stated that the word “tribunal” includes arbitral

6
the Fifth Circuit’s decision in Republic of Kazakhstan v.
Biedermann Int’l, 168 F.3d 880 (5th Cir. 1999), decided two
months after Bear Stearns in which the panel “elect[ed] to
follow the Second Circuit’s … decision that Section 1782
does not apply to private international arbitrations.” 168
F.3d at 881.
In the lower courts, Servotronics argued that the
restrictive interpretation of Section 1782 employed in Bear
Stearns and followed in Biedermann contravenes the plain
language of the statute and is inconsistent with the clear
Congressional intent, which was examined and explained
in detail in Intel (542 U.S. at 264-66), the single case to
date in which this Court has analyzed Section 1782(a). 2
C. The Intel Decision
In Intel, the Court traced the history of Section 1782,
noting the continuum over which Congress repeatedly
expanded the scope of the assistance federal courts are
tribunals. Hans Smit, International Litigation Under the United
States Code, 65 Colum. L. Rev. 1015, 1026-27 and nn. 71 & 73 (1965).
In a subsequent article, under the heading “The Tribunals and
Litigants to Which Assistance May Be Granted,” Professor Smit
stated: “Clearly, private arbitral tribunals come within the term
the drafters used.” Hans Smit, American Assistance to Litigation in
Foreign and International Tribunals: Section 1782 of Title 28 of the
U.S.C. Revisited, 25 Syracuse J. Int’l L. & Comm. 1, 5 (Spring 1998).
2. Intel did not involve private arbitration but instead arose
out of a request for discovery in aid of an antitrust proceeding
before the Commission of European Communities, a body charged
with responsibility over various areas covered by the European
Union treaty. 542 U.S. at 250. Thus, the Court had no occasion to
address Biedermann or Bear Stearns in the Intel opinion.

7
authorized to provide in the way of evidence-gathering
for foreign proceedings. Before Section 1782 was enacted
in 1948, circuit courts were authorized to appoint
commissioners to examine witnesses in response to
letters rogatory from foreign courts forwarded through
diplomatic channels. The authority was further limited
to cases in which a foreign government was a party or
had an interest. Section 1782, in its original 1948 form,
eliminated this restriction and allowed district courts to
designate persons to preside at depositions to be used in
“any civil action pending” in any court in a foreign country
with which the United States is at peace. The next year,
Congress further broadened the scope of Section 1782 by
substituting “judicial proceeding” for “civil action.” 542
U.S. at 247-48.
In 1958, prompted by the growth of international
commerce, Cong ress created the Commission on
International Rules of Judicial Procedure. Six years
later, in 1964, Congress unanimously adopted legislation
recommended by the Commission and made a “complete
revision of § 1782.” Id. at 248. As recast and expanded by the
1964 amendments, Section 1782’s provision for assistance
in obtaining documentary and other tangible evidence
as well as testimony “in any judicial proceeding pending
in any court in a foreign country” was replaced with “a
proceeding in a foreign or international tribunal,” thus
eliminating the words “judicial,” “court” and “pending”.
Id. at 248-49. The Intel Court noted that the accompanying
Senate Report “explains that Congress introduced the
word ‘tribunal’ to ensure that assistance is not confined to
proceedings before conventional courts, but extends also
to administrative and quasi-judicial proceedings.” Id. at
249 (internal quotation marks omitted).

8
Professor Hans Smit, at the time Director of the
Project on International Procedure at Columbia Law
School, has been called the “dominant drafter” of the 1964
amendment. See In re Letter of Request from the Crown
Prosecution Serv., 870 F.2d 686, 689 (D.C. Cir. 1989).
Congress accepted all of Professor Smit’s suggestions and
the Commission’s proposed legislative reforms resulting
in the current 28 U.S.C. § 1782. Id.
The Intel decision includes numerous references to
Professor Smit’s writings and analysis in interpreting
the legislative intent of Section 1782. Intel, 542 U.S. at
258. According to Professor Smit, the word “tribunal” as
used in Section 1782 “includes investigating magistrates,
administrative and arbitral tribunals, and quasi-judicial
agencies, as well as conventional, civil, commercial, criminal,
and administrative courts.” Hans Smit, International
Litigation under the United States Code, 65 Colum. L. Rev.
1015, 1026-27 and nn. 71 & 73 (1965).3 In a subsequent article,
Professor Smit elaborated, stating: “Clearly, private
arbitral tribunals come within the term the drafters
used.” Hans Smit, American Assistance to Litigation in
Foreign and International Tribunals: Section 1782 of Title
28 of the U.S.C. Revisited, 25 Syracuse J. Int’l L. & Comm.
1, 5 (Spring 1998).
Thus, the Intel Court endorsed a broad interpretation
of Section 1782 that is consistent with the statute’s
evolution and the contemporaneous expressions of
congressional intent summarized above. 542 U.S. at 2573. Section 1782 was last amended in 1996 with a reference
to “including criminal investigations conducted before formal
accusation” after the reference to foreign and international
tribunals. Intel, 542 U.S. at 249.

9
58. In this regard, the Court concluded that the legislative
history of the 1964 revision “reflects Congress’ recognition
that judicial assistance would be available whether the
foreign or international proceeding or investigation is of
a criminal, civil, administrative or other nature.” 542 U.S.
at 259 (internal quotation marks and emphasis omitted).
D. The Post-Intel Circuit Split
While this action was pending in the Seventh Circuit,
the Fourth and Sixth Circuit Courts of Appeals issued
opinions on the same issue. Taking guidance from the
Intel analysis, which supports a broad interpretation of the
scope of Section 1782, the Fourth and Sixth Circuits held
that the statute permits district courts to render discovery
assistance for use in private commercial arbitration. 4
Servotronics, 954 F.3d at 210; Abdul Latif Jameel Transp.
Co. v. FedEx Corp., 939 F.3d 710 (6th Cir. 2019). 5
4. Similar results were reached by a number of district courts.
Thus, in 2006 the Northern District of Georgia concluded that the
reasoning in Biedermann and Bear Stearns was inconsistent with
the Intel decision and granted an application under Section 1782
to a party to a privately-constituted arbitration proceeding. In
re Roz Trading Ltd., 469 F. Supp. 2d 1221, 1228 (N.D. Ga. 2006).
Others followed suit. See e.g., In re Babcock Borsig AG, 583 F.
Supp. 2d 233, 239 (D. Mass. 2008); In re Hallmark Cap. Corp.,
534 F. Supp. 2d 951, 955 (D. Minn. 2007).
5. In 2012, the Eleventh Circuit relied on the reasoning in
Intel and found that the word “tribunal” as used in Section 1782
includes a private arbitral tribunal (in that case one convened in
Ecuador). However, this opinion was vacated two years later when
new issues were presented relating not to an arbitration, but to
a contemplated foreign civil action. See Consorcio Ecuatoriano
de Telecomunicaciones S.A. v. JAS Forwarding (USA), Inc., 685
F.3d 987, 994-95 (11th Cir. 2012) (“Consorcio I”), vacated and
superseded, 747 F.3d 1262 (11th Cir. 2014) (“Consorcio II”).

10
Addressing the issue of whether a private arbitral
tribunal presiding over an international commercial
arbitration is a tribunal within the meaning of Section 1782
as a matter of first impression, the Fourth Circuit began its
analysis with a review of the history of the statute presented
in Intel. Servotronics, 954 F.3d at 201-214. This review led
the court to observe that the current version of the statute,
as amended in 1964, “manifests Congress’ policy to increase
international cooperation by providing U.S. assistance in
resolving disputes before not only foreign courts but before
all foreign and international tribunals.” Id. at 213 (emphasis
in original). The Fourth Circuit rejected Boeing’s contention
that “tribunal,” as used in Section 1782, is confined to an
entity that exercises government-conferred authority,
concluding that it “represents too narrow an understanding
of arbitration, whether it is conducted in the United Kingdom
or the United States.” Id. The Fourth Circuit recognized
that arbitration “is a congressionally endorsed and regulated
process that is judicially supervised” and that arbitration
has been developed as a “favored alternative to the judicial
process for the resolution of disputes” in the United States. Id.
at 214. Therefore, the Fourth Circuit stated that arbitration
“clearly is” a “product of ‘government-conferred authority,’
under U.S. law….” Id. Furthermore, the court pointed out,
the UK Arbitration Act of 1996 “provides more governmental
regulation and oversight than does the [Federal Arbitration
Act].” Id. (emphasis in original). On this basis, the court
determined:
even if we were to apply the more restrictive
definition of “foreign international tribunal”
adopted by Bear Stearns and Biedermann,
and now advanced by Boeing—that the term
only refers to “entities acting with the authority

11
of the state”—we would conclude that the
UK arbitral panel charged with resolving the
dispute between Servotronics and Rolls-Royce
meets that definition.
Id.
As a result, the Fourth Circuit concluded that the
proceeding to resolve the dispute between Servotronics and
Rolls-Royce is pending in a “foreign or international tribunal”
within the meaning of Section 1782 and that the district
court has authority to provide, in its discretion, assistance
in connection with that arbitration. Id. at 216.
However, other Circuit Courts of Appeals have departed
from the Intel approach to interpreting Section 1782, thereby
establishing a clear split among the circuits. The Second
Circuit reaffirmed its Bear Stearns holding and rationale in
Hanwei Guo v. Deutsche Bank Sec., 965 F.3d 96, 100 (2d
Cir. 2020), and in El Paso Corp. v. La Comision Ejecutiva
Hidroelectrica del Rio Lempa, 341 F. App’x 31, 34 (5th
Cir. 2009), the Fifth Circuit declined to depart from its
pre-Intel holding in Biedermann. The Seventh Circuit
followed the Second Circuit in the case that is the subject of
this Petition. Servotronics, 975 F.3d at 690. Thus, the Fourth
and Seventh Circuit Courts of Appeals have viewed a single
international proceeding as pending before a tribunal that
is both within and outside the scope of Section 1782.6
6. At present, the Third and Ninth Circuits have the issue under
consideration. See In re EWE Gassepeicher GMBH, Docket No.
19-mc-109-RGA, 2020 WL 1272612 (D. Del. March 17, 2020), appeal
docketed, No. 20-1830 (3d Cir. April 24, 2020); HRC-Hainan Holding
Co. LLC v. Yihan Hu, Docket No. 19-mc-80277-TSH, 2020 WL 906719
(N.D. Cal. Feb. 25, 2020), appeal docketed sub nom., In re HRCHainan Holding Co. LLC, No. 20-15371 (9th Cir. March 4, 2020).

12
REASONS FOR GRANTING THE PETITION
I.

The Courts of Appeals Are Divided on the Question
Presented and Will Remain So Without this Court’s
Review

As detailed above, there currently is a 3-2 split among the
courts of appeals on the question presented in this petition
and cases pending before the Third and Ninth Circuits will
compound the situation. District courts around the country in
circuits that have yet to rule on the issue continue to grapple
with new applications, reaching disparate results.7 Moreover,
it is anticipated that this issue will continue to be raised in
various district courts with increasing frequency.
Some courts that have denied applications submitted
by parties to arbitral proceedings have allowed that a party
to a “governmental” proceeding, such as an arbitration
sponsored by a government agency or established under a
treaty, might be eligible to seek judicial assistance under
Section 1782. The Fourth Circuit, in the decision involving
the same parties and same arbitration proceeding as the
one at issue herein, concluded that to the extent some
governmental participation is a prerequisite to federal
court assistance under Section 1782, such requirement was
satisfied because the government of the United Kingdom,
7. See In re CMPC Cellulose Riograndense LTDA, Docket
No. 19-MC-00005 WES, 2019 WL 2995950 (D. R. I. July 9, 2019);
In re Winning (HK) Shipping Co., Docket No. 09-22659-MC,
2010 WL 1796579 (S.D. Fla. April 30, 2010); In re Operadora DB
Mexico, Docket No. 6:09-cv-383-Orl-22GJK, 2009 WL 2423138
(M.D. Fla. Aug. 4, 2009). These are in addition to the recently-decided
cases in districts within the Third and Ninth Circuits where the issue
is pending in their respective courts of appeals.

13
through its U.K. Arbitration Act, endorses arbitration as
an alternative to litigation and has regulated its process
and conferred supervisory authority on its courts. See
Servotronics, 954 F.3d at 213-14. This view struck the
Seventh Circuit as “mistaken.” See Servotronics, 975
F.3d at 693 n.2.
II. The Present Case Is Ideally Suited to Resolving the
Question Presented
It took thirteen years for the Sixth Circuit to issue
the first post-Intel appellate decision on this issue and this
Court has not made any rulings on Section 1782 since the
2004 Intel decision.
The issue is narrow and clearly-defined: whether
a party to a private, commercial foreign arbitration
proceeding, such as one governed by the U.K. Arbitration
Act and Rules of the Chartered Institute of Arbitrators,
may apply for an order under Section 1782. Some
courts have held yes, and some no, with each side using
substantially similar methodologies. Given the everincreasing usage of private international arbitrations
which, by their nature, tend to have time constraints that
prevent the parties from pursuing appeals and petitioning
this Court for review, this case presents a rare opportunity
for this Court to provide the district courts with a uniform
standard for responding to applications for assistance
under Section 1782.

14
III. The Seventh Circuit Incorrectly Decided the
Question Presented Due to Misapplication of TimeHonored Canons of Statutory Construction
Consistency in approach to statutory construction is
essential for a shared understanding of the rights, obligations,
and privileges prescribed in legislation. The plain meaning
of the unambiguous term “tribunal” should be regarded as
conclusive, in the absence of clearly expressed legislative
intent to the contrary. See U. S. v. Turkette, 452 U.S. 576,
580 (1981).
Courts have used the term “tribunal” to “describe
private, contracted-for commercial arbitrations for many
years before Congress added the relevant language to
Section 1782(a) in 1964.” FedEx Corp., 939 F.3d at 721. In
support of this point, the Sixth Circuit collected cases
dating back as far as 1853, 8 as well as cases decided by
this Court both prior to and after 1964.9 Id. at 721-22.
Notably, the Sixth Circuit pointed out that this Court used
the term “international arbitral tribunal” to describe a
private arbitration in Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, 473 U.S. 614 (1985). In fact, the term
8. See, e.g., Henry v. Lehigh Valley Coal Co., 215 Pa. 448, 64
A. 635, 636 (1906) (panel of three engineers chosen by a method
prescribed by the parties’ contract referred to as a special tribunal
to settle their dispute); Susong v. Jack, 48 Tenn. 415, 416-17 (1870)
(referencing the voluntary act of the parties in submitting their
case to arbitration as “submitting their cause to another tribunal”);
Montgomery Cty. Comm’rs v. Carey, 1 Ohio St. 463, 468 (1853).
9. See, e.g., Bernhardt v. Polygraphic Co. of America, 350
U.S. 198, 199 (1956) (referring to agreed arbitration under New
York law by the American Arbitration Association when discussing
the “nature of the tribunal where suits are tried”).

15
was used repeatedly throughout the opinion to describe,
not only the arbitration at issue in the case before it, but
international and transnational arbitrations that were the
subject of other opinions rendered by this Court. From
this review of historical and contemporary usage of the
word “tribunal” to refer to arbitrations, the Sixth Circuit
concluded “that American lawyers and judges have long
understood, and still use, the word ‘tribunal’ to encompass
privately contracted-for arbitral bodies with the power to
bind the contracting parties.” 939 F.3d at 722.
In Bear Stearns, appellant NBC submitted “numerous
references” to “court cases, international treaties,
congressional statements, academic writings and even the
Commentaries of Blackstone and Story” that refer to private
arbitration bodies as “tribunals”. 165 F.3d at 188. The Second
Circuit nonetheless concluded that this only showed the
“statute did not unambiguously exclude [arbitral tribunals]”
from the scope of Section 1782. Id. (Emphasis added). The
Fifth Circuit in Biedermann and the Seventh Circuit in the
case below both placed substantial reliance on the Second
Circuit’s reasoning. However, this approach contravenes the
time-honored canon of statutory construction that cautions
courts against reading exceptions into legislation that are
not expressed in the language of a statute. See Intel, 542
U.S. at 260 (if Congress had intended to impose sweeping
restrictions to the district court’s discretion at a time when
it was enacting liberalizing amendments to a statute it
would have included statutory language to that effect);
Maxwell v. Moore, 63 U.S. (1 Wall.) 185 (1859) (“where the
Legislature makes a plain provision, without making any
exception, the courts of justice can make none, as it would
be legislating to do so.”). See also City of Chicago v. Env’t
Defense Fund, 511 U.S. 328, 338 (1994).

16
The arbitral tribunal is a “tribunal” in both the everyday
and legal sense of the term. As the Fourth Circuit concluded,
the proceeding to which Servotronics and Rolls-Royce are
parties qualifies as a “tribunal,” even under a “governmentconferred authority” requirement that was suggested in Bear
Stearns and Biedermann, due to the degree to which the
UK Arbitration Act sanctions, regulates and provides for
governmental and judicial oversight for such proceedings.
954 F.3d at 214.
To the extent statutory language is deemed to be
ambiguous, reference to its drafting and legislative
history is appropriate. In the case of Section 1782, the
legislative history lends further support to an inclusive
interpretation of the term “tribunal” that encompasses
private arbitration tribunals. See Intel, 542 U.S. at 247-49.
Congress introduced the term “tribunal” with the 1964
amendment to Section 1782 (id.), which replaced the phrase
“a judicial proceeding pending in a foreign country” with
one that reflected the Congressional intent to expand
the reach of the statute: “a proceeding in a foreign or
international tribunal.” Id. at 248-249. In addition, the
1964 amendment deleted provisions previously found
in the Foreign Relations Code at 22 U.S.C. § 270-270g,
making Section 1782 applicable in their place. S. Rep.
No. 88-1580 (1964), as reprinted in 1964 U.S.C.C.A.N.
3782, 3784-85. The Foreign Relations Code provisions had
applied only with respect to “governmental” tribunals. See
former 22 U.S.C. §§ 270-270g, Act of July 3, 1930, ch. 851,
§§ 1-4, 46 Stat. 1005, 1006, Amendment of June 7, 1933,
ch. 50, 48 Stat. 117, 118 (repealed 1964).
The Second Circuit in Bear Stearns held that
because the Foreign Relations Code applied only to such
“governmental” tribunals, or those established by a

17
treaty to which the United States was a party, the same
limitations should be read into Section 1782, as amended
in 1964, even though Congress left them out. See Bear
Stearns, 165 F.3d at 189-90. By so doing, the Second
Circuit ignored the fundamental precept of statutory
interpretation, which is to enforce clearly-expressed
legislative intent. See Turkette, 452 U.S. at 580 (concluding
that, if Congress had intended the more circumscribed
approach to the RICO definition of criminal enterprise
espoused by the court of appeals, there would have been
some “positive sign” of such limiting intent). As this Court
has stated time and again, “courts must presume that a
legislature says in a statute what it means and means in
a statute what it says.” Conn. Nat’l Bank v. Germain, 503
U.S. 249, 253-54 (1992).
Biedermann also suggested, and the Seventh Circuit
agreed, that private commercial arbitration was so “novel”
in 1964 that the drafters could not have intended to refer
to arbitration tribunals that were not part of government
agencies or established by treaty as “tribunals” in the 1964
amendments. 168 F.3d at 882. However, this is the reverse
of what the legislative history suggests was the congressional
intent. Congress, whose members were undoubtedly aware
of the growth of private commercial arbitration, wanted to
remove limitations in order to make Section 1782 sufficiently
flexible and useful to keep pace with modern-era means
of resolving international commercial disputes. See Intel,
542 U.S. at 259-61. The Sixth Circuit’s analysis of case law
predating the amendment to Section 1782 demonstrates that
private commercial arbitration was not a novelty in 1962. 939
F.3d at 720-722. The narrow construction also is inconsistent
with this Court’s interpretation in Intel, which acknowledged
that Section 1782’s legislative history could not discuss every
conceivable nuance. See generally Intel, 542 U.S. at 248-49.

18
Thus, the absence of an express intention to exclude
private commercial arbitrations from the ambit of Section
1782, together with the substantial indications of a
congressional intent to expand the types of proceedings
for which federal court assistance could be rendered, as
recognized in Intel, leads to the conclusion that the Fourth
and Sixth Circuit Courts of Appeals held correctly that
Section 1782 applies to private commercial arbitral tribunals
and the holdings of the Second, Fifth and Seventh Circuits
are incorrect.
CONCLUSION
In order to resolve the split of authority among the
Circuit Courts of Appeals and remove uncertainty on an
issue repeatedly presented to district courts, Petitioner
respectfully submits that this petition for a writ of
certiorari should be granted.
Dated: New York, New York
December 7, 2020
Respectfully submitted,
K aren Kies DeGrand
Michael H. A dler
Donohue Brown Mathewson
& Smyth LLC
140 South Dearborn Street,
Suite 800
Chicago, IL 60603
(312) 422-0910

Stephen R. Stegich
Counsel of Record
K atherine B. Posner
David P. Yates
Condon & Forsyth
Times Square Tower
Seven Times Square
New York, New York 10036
(212) 490-9100
sstegich@condonlaw.com

Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED SEPTEMBER 22, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-1847
SERVOTRONICS, INC.,
Petitioner-Appellant,
v.
ROLLS-ROYCE PLC
AND THE BOEING COMPANY,
Intervenors-Appellees.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 18-cv-7187 — Elaine E. Bucklo, Judge.
September 19, 2019, Argued
September 22, 2020, Decided
Before S y k es , Chief Judge, and H a milton and
Brennan, Circuit Judges.
S y k es , Chief Judge. Section 1782(a) of Title 28
authorizes the district court to order a person within the
district to give testimony or produce documents “for use

2a
Appendix A
in a proceeding in a foreign or international tribunal.”
This case asks whether a private foreign arbitration is “a
proceeding in a foreign or international tribunal” within
the meaning of the statute. Two decades ago, the Second
and Fifth Circuits answered this question “no,” holding
that § 1782(a) authorizes the district court to provide
discovery assistance only to state-sponsored foreign
tribunals, not private foreign arbitrations. Nat’l Broad.
Co. v. Bear Stearns & Co., 165 F.3d 184, 191 (2d Cir. 1999);
Republic of Kazakhstan v. Biedermann Int’l, 168 F.3d
880, 883 (5th Cir. 1999).
More recently, the Sixth Circuit reached the opposite
conclusion, Abdul Latif Jameel Transp. Co. v. FedEx Corp.
(In re Application to Obtain Discovery for Use in Foreign
Proceedings), 939 F.3d 710, 714 (6th Cir. 2019), and the
Fourth Circuit agreed, Servotronics, Inc. v. Boeing Co.,
954 F.3d 209, 214 (4th Cir. 2020). We join the Second and
Fifth Circuits and hold that § 1782(a) does not authorize
the district court to compel discovery for use in a private
foreign arbitration.
I. Background
The backdrop for this case is an indemnification
dispute over losses incurred when an aircraft engine
caught fire during testing in South Carolina. Rolls-Royce
PLC manufactured and sold a Trent 1000 engine to the
Boeing Company for incorporation into a 787 Dreamliner
aircraft. In January 2016 Boeing tested the new aircraft
at its facility near the Charleston International Airport. A
piece of metal became lodged in an engine valve, restricting

3a
Appendix A
the flow of fuel to the engine. As Boeing employees
attempted to fix the problem, the engine caught fire,
damaging the aircraft. Boeing demanded compensation
from Rolls-Royce, and in 2017 the companies settled for
$12 million. Rolls-Royce then sought indemnification from
Servotronics, Inc., the manufacturer of the valve.
Under a long-term agreement between Rolls-Royce
and Servotronics, any dispute not resolved through
negotiation or mediation must be submitted to binding
arbitration in Birmingham, England, under the rules
of the Chartered Institute of A rbiters (“CIA rb”).
Negotiations did not bear fruit, so Rolls-Royce initiated
arbitration with the CIArb. For convenience, the parties
agreed to conduct the arbitration in London.
Servotronics thereafter filed an ex parte application in
the U.S. District Court for the Northern District of Illinois
asking the court to issue a subpoena compelling Boeing
to produce documents for use in the London arbitration.
The application invoked 28 U.S.C. § 1782(a), and the judge
initially granted it and issued the requested subpoena.
Rolls-Royce intervened and moved to quash the subpoena,
arguing that § 1782(a) does not permit a district court to
order discovery for use in a private foreign commercial
arbitration. Boeing intervened and joined the motion
to quash. The judge reversed course and quashed the
subpoena. She agreed with Rolls-Royce and Boeing that
§ 1782(a) does not authorize the court to provide discovery
assistance in private foreign arbitrations. Servotronics
appealed. Rolls-Royce and Boeing jointly defend the
judge’s ruling.

4a
Appendix A
II. Discussion
A. Statutory Framework
Sections 1781 and 1782 of Title 28 govern the district
court’s authority to provide discovery assistance in
litigation in foreign and international tribunals. Section
1781 describes a formal judicial instrument known as a
“letter rogatory”—a letter of request “issued by one court
to a foreign court, requesting that the foreign court (1)
take evidence from a specific person within the foreign
jurisdiction ... and (2) return [it] ... for use in a pending
case.” Letter of Request, Black’s Law Dictionary (11th
ed. 2019).
Letters rogatory are transmitted through diplomatic
agencies; the statute provides that the State Department
may, either “directly, or through suitable channels, ...
receive a letter rogatory issued, or request made, by
a foreign or international tribunal, to transmit it to
the tribunal, officer, or agency in the United States to
whom it is addressed,” and “receive and return it after
execution.” 28 U.S.C. § 1781(a)(1). The assistance is
reciprocal; tribunals in the United States may issue letters
rogatory through the State Department to a “foreign or
international tribunal, officer, or agency.”1 Id. § 1781(a)(2).
1. A State Department regulation elaborates:
In its broader sense in international practice, the
term letters rogatory denotes a formal request from a
court in which an action is pending, to a foreign court
to perform some judicial act. Examples are requests

5a
Appendix A
Section 1782 works in tandem with and supplements
§ 1781, empowering the district court to order a person
within the district to give testimony or provide evidence
for use in foreign litigation, either in response to a letter
rogatory or on application of a person with an interest
in the litigation. The key portion of the statute reads as
follows:
The district court of the district in which a
person resides or is found may order him to
give his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or inter national tr ibunal ,
including criminal investigations conducted
before formal accusation.
Id. § 1782(a) (emphasis added). The link to § 1781 comes
in the next sentence:
The order may be made pursuant to a letter
rogatory issued, or request made, by a foreign
or international tribunal or upon the application
of any interested person and may direct that
the testimony or statement be given, or the
for the taking of evidence, the serving of a summons,
subpoena, or other legal notice, or the execution of
a civil judgment. In United States usage, letters
rogatory have been commonly utilized only for the
purpose of obtaining evidence. Requests rest entirely
upon the comity of courts toward each other, and
customarily embody a promise of reciprocity.
22 C.F.R. § 92.54.

6a
Appendix A
document or other thing be produced, before a
person appointed by the court.
Id.
The statute also gives the judge the discretion to
prescribe procedures for the collection of evidence,
including the option to require adherence to the practice
and procedure of the foreign country or international
tribunal in question:
The order may prescribe the practice and
procedure, which may be in whole or part the
practice and procedure of the foreign country
or the international tribunal, for taking
the testimony or statement or producing the
document or other thing. To the extent that
the order does not prescribe otherwise, the
testimony or statement shall be taken, and
the document or other thing produced, in
accordance with the Federal Rules of Civil
Procedure.
Id. (emphasis added).
This case involves a § 1782(a) application filed by a
party to a private commercial arbitration in the United
Kingdom; there is no letter rogatory or request from a
foreign or international tribunal. Rather, Servotronics
invoked the statute by virtue of its status as an “interested
person” in the London arbitration. The judge issued the
subpoena ex parte but later quashed it after concluding

7a
Appendix A
that § 1782(a) does not authorize federal courts to provide
discovery assistance to private foreign arbitrations.
Servotronics takes issue with that interpretation of the
statute, so we’re asked to resolve a purely legal question
and our review is de novo. United States v. Titan Int’l,
Inc., 811 F.3d 950, 952 (7th Cir. 2016).
B. Applicability to Private Foreign Arbitrations
This is a question of first impression for our circuit,
but several other circuits have addressed it and a split
has recently emerged. The disagreement centers on the
meaning of the statutory phrase “foreign or international
tribunal”—or more particularly, the word “tribunal.”
The Second Circuit was the first to confront the
question more than 20 years ago. The court began
by observing that although the phrase “foreign or
international tribunal” does not unambiguously exclude
private arbitral panels, neither does it unambiguously
include them. Nat’l Broad. Co., 165 F.3d at 188. After
reviewing the statutory and legislative history, the court
concluded that the phrase, considered in context, is limited
to state-sponsored foreign and international tribunals. Id.
at 188-91. The court added that a contrary interpretation
would create an inexplicable conflict with the Federal
Arbitration Act. More specifically, a broad grant of
federal-court authority to compel discovery in private
foreign arbitrations “would stand in stark contrast to” the
extremely limited judicial role in domestic arbitrations. Id.
at 191. Accordingly, the court held that the statute does
not authorize district courts to order discovery for use in
private foreign arbitrations. Id.

8a
Appendix A
T he Fi f th Ci rcu it qu ick ly ag reed w ith that
interpretation, Biedermann Int’l, 168 F.3d at 883, and
that’s where things stood for many years. No other
appellate court weighed in until last year when the Sixth
Circuit read the word “tribunal” broadly and held that the
district court’s authority to compel discovery for use in
foreign litigation extends to private foreign arbitrations.
In re Application to Obtain Discovery, 939 F.3d at 714.
A few months later, the Fourth Circuit aligned itself
with the Sixth Circuit in a case involving a § 1782(a)
application by Servotronics in a district court in South
Carolina seeking discovery for use in this same London
arbitration. Servotronics, 954 F.3d at 212-13. The
Fourth Circuit’s decision differs in one respect from the
Sixth Circuit’s; it rests in part on the court’s view that
contractual arbitration is the “product of governmentconferred authority” both in the United Kingdom and the
United States. 2 Id. at 214.
Finally, and more recently still, the Second Circuit
reaffirmed its interpretation of § 1782 notwithstanding
the contrary views of the Sixth and Fourth Circuits. In
re Guo, 965 F.3d 96, 104 (2d Cir. 2020). The court also
2. That view strikes us as mistaken. Contractual arbitration
is private dispute resolution. The source of a private arbitral
panel’s adjudicative authority is found in the parties’ contract, not
a governmental grant of power. A private arbitral body does not
exercise governmental or quasi-governmental authority. But we need
not explore this point further. No one here argues that arbitration
in the United Kingdom (or the United States) is the product of
government-conferred authority.

9a
Appendix A
held that nothing in the Supreme Court’s decision in Intel
Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241, 124
S. Ct. 2466, 159 L. Ed. 2d 355 (2004), required a course
correction. In re Guo, 965 F.3d at 105-06. We’ll return
to Intel in a moment; for now, it’s enough to say that the
Court’s decision does not tip the scales in favor of either
side of the circuit split.
For several reasons, we side with the Second and
Fifth Circuits in this interpretive debate. First, the word
“tribunal” is not defined in the statute, and dictionary
definitions do not unambiguously resolve whether private
arbitral panels are included in the specific sense in which
the term is used here. All definitions agree that the word
“tribunal” means “a court,” but some are more expansive,
leaving room for both competing interpretations.
For example, in 1964 when the present-day version of
the statute was adopted, Black’s Law Dictionary defined
“tribunal” as: “The seat of a judge; the place where he
administers justice. The whole body of judges who compose
a jurisdiction; a judicial court; the jurisdiction which the
judges exercise.” Tribunal, Black ’s L aw Dictionary
(4th ed. 1951). That definition appears to exclude private
arbitral panels. Today the legal definition of “tribunal” is
broader: “A court of justice or other adjudicatory body.”
Tribunal, Black’s Law Dictionary (11th ed. 2019).
Nonlegal definitions are similar. See, e.g., Tribunal,
The Concise Oxford Dictionary of Current English
(5th ed. 1964) (defining “tribunal” as “[j]udgement-seat ...;
court of justice”); Tribunal, Webster’s New T wentieth

10a
Appendix A
Century Dictionary (2d ed. 1964) (defining “tribunal”
as “the seat of a judge; ... a court of justice”); Tribunal,
A merican Heritage Dictionary of the English Language
(5th ed 2018) (defining “tribunal” as “[a] law court[;] ... [a]
committee or board appointed to adjudicate in a particular
matter”); Tribunal, Merriam-Webster’s Dictionary and
Thesaurus (2020) (defining “tribunal” as “the seat of a
judge[;] a court of justice[;] something that decides or
determines, [as in] the ~ of public opinion ...”).
In short, canvassing dictionary definitions is
inconclusive. In both common and legal parlance,
the phrase “foreign or international tribunal” can be
understood to mean only state-sponsored tribunals, but
it also can be understood to include private arbitration
panels. Both interpretations are plausible.
C. Statutory Context
As always, context is key to unlocking meaning. After
all, statutory words and phrases “cannot be construed
in a vacuum. ... It is a fundamental canon of statutory
construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.” Home Depot U.S.A., Inc. v. Jackson,
139 S. Ct. 1743, 1748, 204 L. Ed. 2d 34 (2019) (quoting
Davis v. Mich. Dep’t of Treasury, 489 U.S. 803, 809, 109
S. Ct. 1500, 103 L. Ed. 2d 891 (1989)). Once we situate the
word “tribunal” in its proper statutory context, the more
expansive reading of the term—the one that includes
private arbitrations—becomes far less plausible.

11a
Appendix A
As we’ve noted, the language of present-day § 1782
dates to 1964. See Intel, 542 U.S. at 247-49 (describing
the statutory history of § 1782). The text was proposed
by the Commission on International Rules of Judicial
Procedure, a study group created by Congress in 1958
with the following statutory charge:
The Commission shall investigate and study
existing practices of judicial assistance and
cooperation between the United States and
foreign countries with a view to achieving
improvements. To the end that procedures
necessary or incidental to the conduct and
settlement of litigation in State and Federal
courts and quasi-judicial agencies which involve
the performance of acts in foreign territory,
such as the service of judicial documents, the
obtaining of evidence, and the proof of foreign
law, may be more readily ascertainable,
efficient, economical, and expeditious, and
that the procedures of our State and Federal
tribunals for the rendering of assistance to
foreign courts and quasi-judicial agencies be
similarly improved, the Commission shall—
(a) draft for the assistance of the
Secretary of State international
agreements to be negotiated by him;
(b) draft and recommend to the
President any necessary legislation;

12a
Appendix A
(c) recommend to the President such
other action as may appear advisable
to improve and codify international
pract ice i n civ i l, cr i m i na l, a nd
administrative proceedings; and
(d) perform such other related duties
as the President may assign.
Act of Sept. 2, 1958, Pub. L. No. 85-906, § 2, 72 Stat. 1743,
1743. Noticeably absent from this statutory charge is any
instruction to study and recommend improvements in
judicial assistance to private foreign arbitration.
“Six years later, in 1964, Congress unanimously
adopt ed leg islat ion recom mended by the Ru les
Commission,” which “included a complete revision of
§ 1782.” Intel, 542 U.S. at 248; Act of Oct. 3, 1964, Pub.
L. No. 88-619, § 9, 78 Stat. 995, 997. The legislation also
revised 28 U.S.C. § 1696, pertaining to service of process
in foreign litigation, and § 1781, regarding letters rogatory.
Act of Oct. 3, § 4, 78 Stat. 995; id. § 8, 78 Stat. 996. All three
statutes use the identical phrase “foreign or international
tribunal” to describe the object of the district court’s
litigation assistance.
Identical words or phrases used in different parts of
the same statute (or related statutes) are presumed to
have the same meaning. Merrill Lynch, Pierce, Fenner
& Smith Inc. v. Dabit, 547 U.S. 71, 86, 126 S. Ct. 1503,
164 L. Ed. 2d 179 (2006). Service-of-process assistance
and letters rogatory—governed by §§ 1696 and 1781—are

13a
Appendix A
matters of comity between governments, which suggests
that the phrase “foreign or international tribunal” as used
in this statutory scheme means state-sponsored tribunals
and does not include private arbitration panels.
Within § 1782(a) itself, the word “tribunal” appears
three times—first in the operative sentence authorizing the
district court to order discovery “for use in a proceeding
in a foreign or international tribunal,” and again in the
next sentence, which authorizes the court to act on a letter
rogatory issued by “a foreign or international tribunal.”
Two sentences later the word “tribunal” appears again
where the statute provides that the court’s discovery order
“may prescribe the practice and procedure, which may be
in whole or part the practice and procedure of the foreign
country or the international tribunal.” (Emphasis added.)
The highlighted phrase parallels the earlier phrase
“foreign or international tribunal.” Harmonizing this
statutory language and reading it as a coherent whole
suggests that a more limited reading of § 1782(a) is
probably the correct one: a “foreign tribunal” in this
context means a governmental, administrative, or quasigovernmental tribunal operating pursuant to the foreign
country’s “practice and procedure.” Private foreign
arbitrations, in other words, are not included.
D. Conflict with the Federal Arbitration Act
This narrower understanding of the word “tribunal”
avoids a serious conflict with the Federal Arbitration Act
(“FAA”), 9 U.S.C. §§ 1-15 (amended 1988). We “interpret

14a
Appendix A
Congress’s statutes as a harmonious whole rather than at
war with one another.” Epic Sys. Corp. v. Lewis, 138 S.
Ct. 1612, 1619, 200 L. Ed. 2d 889 (2018). When a statute
is susceptible of two interpretations, one that creates
a conflict with another statute and another that avoids
it, we have an obligation to avoid the conflict “if such a
construction is possible and reasonable.” Precision Indus.,
Inc. v. Qualitech Steel SBQ, LLC, 327 F.3d 537, 544 (7th
Cir. 2003). Applying this principle to the relationship
between the FAA and § 1782 confirms that the latter does
not apply to private foreign arbitrations.
The discovery assistance authorized by § 1782(a) is
notably broader than that authorized by the FAA. Most
significantly, the FAA permits the arbitration panel—but
not the parties—to summon witnesses before the panel to
testify and produce documents and to petition the district
court to enforce the summons. 9 U.S.C. § 7. Section 1782(a),
in contrast, permits both foreign tribunals and litigants
(as well as other “interested persons”) to obtain discovery
orders from district courts. If § 1782(a) were construed
to permit federal courts to provide discovery assistance
in private foreign arbitrations, then litigants in foreign
arbitrations would have access to much more expansive
discovery than litigants in domestic arbitrations. It’s hard
to conjure a rationale for giving parties to private foreign
arbitrations such broad access to federal-court discovery
assistance in the United States while precluding such
discovery assistance for litigants in domestic arbitrations.
Moreover, the FAA applies to some foreign arbitrations
under implementing legislation for the Convention on the

15a
Appendix A
Recognition and Enforcement of Foreign Arbitral Awards
and the Inter-American Convention on International
Commercial Arbitration. See 9 U.S.C. §§ 201-208, 301307; Nat’l Broad. Co., 165 F.3d at 187. Reading § 1782(a)
broadly to apply to all private foreign arbitrations creates
a direct conflict with the Act for this subset of foreign
arbitrations.
In sum, what the text and context of § 1782(a) strongly
suggest is confirmed by the principle of avoiding a collision
with another statute: a “foreign or international tribunal”
within the meaning of § 1782(a) is a state-sponsored,
public, or quasi-governmental tribunal.
E. Intel and Legislative History
Intel was the Supreme Court’s first—and to date
only—occasion to address § 1782(a). The Court held that
the statute may be invoked by a nonlitigant “interested
person,” Intel, 542 U.S. at 256-57, and also that a foreign
proceeding need not be pending or imminent but only
“within reasonable contemplation,” id. at 259. And the
Court clarified that § 1782(a) does not contain an implicit
foreign-discoverability requirement. Id. at 260-63. Finally,
and most pertinent here, the Court considered whether the
proceeding at issue in the case—before the Directorate
General for Competition of the Commission of the
European Communities—was a “proceeding in a foreign
or international tribunal.” The Court had no difficulty
concluding that the Directorate, as a public agency with
quasi-judicial authority, qualified as a “foreign tribunal”
within the meaning of § 1782(a).

16a
Appendix A
A long the way to this last holding, the Court
sketched the legislative history of § 1782 and as a part
of its discussion quoted from a footnote in a law-review
article written by the law professor who served as
the reporter for the commission that proposed what
eventually became § 1782. This passage in Intel has taken
on outsized significance here, so we quote it in full: “The
term ‘tribunal’ [in § 1782(a)] ... includes investigating
magistrates, administrative and arbitral tribunals,
and quasi-judicial agencies, as well as conventional civil,
commercial, criminal, and administrative courts.” Id. at
258 (emphasis added) (quoting Hans Smit, International
Litigation Under the United States Code, 65 Colum. L.
Rev. 1015, 1026 n.71 (1965)).
Servotronics relies heavily on the professor’s inclusion
of “arbitral tribunals” in this footnoted list, but this
reliance is misplaced. The quotation from the professor’s
article appears in the Court’s opinion as part of an
explanatory parenthetical. There is no indication that
the phrase “arbitral tribunals” includes private arbitral
tribunals. Even if there were such an indication, we see
no reason to believe that the Court, by quoting a lawreview article in a passing parenthetical, was signaling
its view that § 1782(a) authorizes district courts to provide
discovery assistance in private foreign arbitrations.
In short, this passage cannot bear the weight
Servotronics places on it. For the foregoing reasons, we
join the Second and Fifth Circuits in concluding that
§ 1782(a) does not authorize the district courts to compel
discovery for use in private foreign arbitrations.
A ffirmed

17a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED APRIL 22, 2019
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 18-cv-7187
In re Application of SERVOTRONICS, INC., for an
Order Pursuant to 28 U.S.C. § 1782 to Take Discovery
for Use in a Foreign Proceeding
April 22, 2019, Decided
April 22, 2019, Filed
ORDER
Servotronics, Inc. (“Servotronics”) initiated this
action by filing an ex parte application for discovery
assistance pursuant to 28 U.S.C. § 1782(a). In its
application, Servotronics sought an order allowing it to
serve a subpoena duces tecum upon the Boeing Company
(“Boeing”), a resident of this district, to obtain documents
for use in a private arbitration proceeding between
Servotronics and Rolls-Royce, PLC (“Rolls-Royce”)
pending in London, England (“London Arbitration”).
I granted the application, and Servotronics served its
subpoena on Boeing. Shortly thereafter Rolls-Royce
filed a motion to vacate the order granting Servotronics’s
application and to quash the subpoena, and Boeing filed
a response in support of Rolls-Royce’s motion. For the

18a
Appendix B
reasons that follow, I grant the motion, vacate my previous
order, and quash Servotronics’s subpoena on Boeing.
The parties’ underlying dispute arises from a fire
that occurred at Boeing’s facilities in Charleston, South
Carolina. During a ground engine test of a Boeing 787-9
aircraft, a stray piece of metal apparently got lodged in
the aircraft’s engine valve, affecting the flow of fuel to the
engine. Boeing’s employees began troubleshooting the
engine, and, at some point, the engine caught fire, causing
damage to the aircraft.
After the accident, Boeing sought compensation
from the engine manufacturer Rolls-Royce, and the
two companies reached a settlement. Rolls-Royce then
demanded indemnity from Servotronics, the manufacturer
of the engine valve that Rolls-Royce claims caused the
engine malfunction. Servotronics refused, and so RollsRoyce notified Servotronics that it intended to arbitrate
the dispute pursuant to an agreement existing between
them. According to their agreement, Rolls-Royce and
Servotronics must submit all disputes that are not resolved
by negotiation or mediation to private arbitration1 under
the rules of the Chartered Institute of Arbitrators
(“CIA rb”), which provide for “final and binding”
arbitration reviewable only for substantive jurisdictional
issues and “serious irregularities.” 2 Shah Decl. [6] ¶¶ 161. Although the agreement does not use the term “private
arbitration,” there is no dispute that private arbitration is what
it requires.
2. By adopting the CIArb Rules, parties “waive their right to
any form of appeal or recourse to a court or other judicial authority

19a
Appendix B
18. After Rolls-Royce sent Servotronics its arbitration
notice, the parties agreed to hold an arbitration hearing
in London, England. That hearing has not yet occurred.
In preparation for the London Arbitration, Servotronics
decided to seek discovery from non-party Boeing and its
employees in the United States. It filed an ex parte 28
U.S.C. § 1782 application here in the Northern District of
Illinois seeking documents from Boeing’s headquarters,
and it filed a separate ex parte application in the District
of South Carolina seeking to take depositions from three
of Boeing’s Charleston facility employees. The South
Carolina court denied Servotronics’s application on the
ground that 28 U.S.C. § 1782 does not reach private
arbitral forums, and Servotronics is appealing that
decision. I granted the application that was before me.
Rolls-Royce, with Boeing’s support, seeks to vacate
my order granting Servotronics’s application because it
asserts that I lacked authority under 28 U.S.C. § 1782 to
order discovery for use in a foreign private arbitration.
Servotronics disagrees of course, but it also argues that I
should not even reach the question of my § 1782 authority
now because (1) Rolls-Royce has not formally moved to
intervene in this case, and (2) Rolls-Royce lacks standing
insofar as such waiver is valid under the applicable law.” Shah Decl.
[6] Exh. A, Art. 34(2). Under the laws of England and Wales, which
govern the agreement between Rolls-Royce and Servotronics, id.
¶ 17, parties to an arbitration cannot waive the right to challenge
an award in court for lack of substantive jurisdiction or for serious
irregularities. Arbitration Act, 1996, c. 23, §§ 4, 67-68 & sch. 1.
However, parties can waive the right to appeal questions of law
arising out of an arbitration award. Id. § 69.

20a
Appendix B
to vacate the order and quash the subpoena since both
are directed at Boeing. Neither of these arguments is
persuasive.
First, although Servotronics is correct that RollsRoyce never filed a formal motion to intervene in this
matter (and neither did Boeing), this does not prevent
me from considering the motion to vacate and quash.
District courts vary on whether they require non-parties
affected by a § 1782 order to formally move to intervene
to challenge the order. Compare In re Kleimar N.V v.
Benxi Iron & Steel Am., Ltd., No. 17-CV-01287, 2017
WL 3386115, at *4 (N.D. Ill. Aug. 7, 2017) (permitting a
party served with a subpoena under § 1782 to challenge
the order without separately moving to intervene), and
In re Application of TJAC Waterloo, LLC, No. 3:16-MC9-CAN, 2016 WL 1700001, at *2 (N.D. Ind. Apr. 27, 2016)
(granting a motion to vacate a § 1782 order by opponent
in the underlying foreign proceeding without a formal
motion to intervene), with In re Ambercroft Trading Ltd.,
No. 18-MC-80074-KAW, 2018 WL 4773187, at *4 (N.D.
Cal. Oct. 3, 2018) (permitting challenge because party
filed a timely motion to intervene under Federal Rule
24(b)), and In re Hornbeam Corp., No. 14-MC-424, 2015
WL 13647606, at *3 (S.D.N.Y. Sept. 17, 2015) (same). And
in any case, motions that implicitly seek intervention in
a matter may be treated as motions brought under Rule
24. See United States v. Griffin, 782 F.2d 1393, 1399 (7th
Cir. 1986) (even when a motion is “not styled [as] one for
intervention ... a court is entitled to disregard labels and
treat pleadings for what they are”); Am. Nat. Bank &
Tr. Co. of Chicago v. Bailey, 750 F.2d 577, 582 (7th Cir.

21a
Appendix B
1984) (party’s failure to file a formal motion for leave to
intervene before it filed a counterclaim “not necessarily
[] fatal to its status as an intervenor”).
Second, as the opposing party in the pending London
Arbitration, Rolls-Royce has standing to request that
my § 1782 order be vacated. It is well-settled that a
party “against whom information obtained under section
1782 may be used, has standing to assert that, to his
detriment, the authority for which the section provides
is being abused.” In re Letter of Request from Crown
Prosecution Serv. of United Kingdom, 870 F.2d 686, 689
(D.C. Cir. 1989) (Ginsburg, J.); see also Application of
Sarrio, S.A., 119 F.3d 143, 148 (2d Cir. 1997) (“We have
recognized, though implicitly, that parties against whom
the requested information will be used may have standing
to challenge the lawfulness of discovery orders directed
to third parties.”). Because Servotronics intends to use
whatever discovery it obtains from Boeing against RollsRoyce in the London Arbitration, Rolls-Royce is entitled
to challenge the validity of the order to produce it.
The merits of Rolls-Royce’s motion require me
to consider the reach of 28 U.S.C. § 1782. Section
1782 “authorizes federal district courts to order the
production of evidentiary materials for use in foreign legal
proceedings, provided the materials are not privileged.”
McKevitt v. Pallasch, 339 F.3d 530, 531 (7th Cir. 2003).
The provision states:
The district court of the district in which a
person resides or is found may order him to

22a
Appendix B
give his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or international tribunal .... The
order may be made pursuant to a letter
rogatory issued, or request made, by a foreign
or international tribunal or upon the application
of any interested person and may direct that
the testimony or statement be given, or the
document or other thing be produced, before a
person appointed by the court....
28 U.S.C. § 1782(a). A federal court thus has authority
to order discovery pursuant to § 1782 when (1) a request
for discovery from a person residing in or found in the
court’s district (2) is made by a foreign tribunal or an
“interested person” (3) for use in “a proceeding in a
foreign or international tribunal.” Id. If these statutory
prerequisites are met, a district court may exercise its
discretion to grant a § 1782 application.
Rolls-Royce does not dispute that Servotronics’s
application met the first and second § 1782 requirements.
It contends, however, that Servotronics’s application
cannot satisfy the third requirement because the London
Arbitration for which Servotronics seeks discovery is a
private arbitral proceeding that does not qualify as a
“foreign or international tribunal” under the statute. I
agree.
As Rolls-Royce points out in its motion, I previously
addressed this question in In re Arbitration between
Norfolk S. Corp., Norfolk S. Ry. Co., & Gen. Sec. Ins.

23a
Appendix B
Co. & Ace Bermuda Ltd. (“Norfolk”), 626 F. Supp. 2d
882 (N.D. Ill. 2009). In Norfolk, I declined to order the
former counsel of a party involved in a private arbitration
in London to appear for a deposition in Chicago pursuant
to § 1782 because I concluded, based on § 1782’s text, its
legislative history, and relevant case law, that purely
private arbitrations were outside the scope of the statute.
Id. at 885-86. In reaching this conclusion, I considered
the Supreme Court’s decision in Intel Corp. v. Advanced
Micro Devices, Inc., 542 U.S. 241 (2004), where the
Court determined that an intergovernmental European
commission that enforced European competition laws
was within § 1782’s ambit. Although Intel did not involve
arbitration, the Court in that case favorably quoted a
definition of “tribunal” that included “arbitral tribunals.”
The Court did not explain whether this definition was
intended to include all arbitral bodies or just governmentsponsored ones. Nonetheless, because the Intel Court
“stopped short of declaring that any foreign body
exercising adjudicatory power falls within the purview
of the statute” and instead focused its analysis on the
public and quasi-judicial functions of the commission in
question and the ultimate reviewability3 of its decisions, I
interpreted the “reference to ‘arbitral bodies’ as including
state-sponsored arbitral bodies but excluding purely
private arbitrations.” Norfolk, 626 F. Supp. 2d at 885. That
3. In Norfolk, I obser ved that the parties’ arbitration
agreement, like the CIArb Rules here, waived the right to judicial
review of the merits of their dispute. 626 F. Supp. 2d at 886. This
limitation on reviewability stood in contrast to the reviewable
decisions of the intergovernmental commission at issue in Intel. See
524 U.S. at 255, 259.

24a
Appendix B
the Court made no mention of Second and Fifth Circuit
precedent expressly holding that § 1782 did not reach private
arbitrations added further support to this interpretation.
See National Broadcasting Co. v. Bear Stearns & Co.
(“NBC”), 165 F.3d 184, 189 (2d Cir. 1999) (holding that
the term “foreign or international tribunal” encompasses
governmental and intergovernmental adjudicatory bodies,
but not “arbitral bod[ies] established by private parties”);
Republic of Kazakhstan v. Biedermann International,
168 F.3d 880, 883 (5th Cir. 1999) (concluding that § 1782
“was not intended to authorize resort to United States
federal courts to assist discovery in private international
arbitrations”).
Since my decision in Norfolk, there have not been
any legal developments that would lead me to a different
conclusion about § 1782’s scope. In GEA Group AG v. FlexN-Gate Corp., 740 F.3d 411 (7th Cir. 2014), the Seventh
Circuit briefly pondered the question of § 1782’s reach
in dicta, noting that a private arbitration in Germany
might—or might not—qualify as a foreign tribunal
under § 1782. Id. at 419. But the Court did not resolve
the question, as the matter before it was not a § 1782
proceeding. The GEA panel did cite one circuit court case,
In re Consorcio Ecuatoriano de Telecomunicaciones
S.A. v. JAS Forwarding (USA), Inc. (“Consorcio I”), 685
F.3d 987 (11th Cir. 2012), which post-dated my decision in
Norfolk, for the proposition that a private arbitral forum
might be covered by § 1782. In Consorcio I, the Eleventh
Circuit broke with the Second and Fifth Circuits to
conclude that a private arbitral panel in Ecuador satisfied
§ 1782’s requirements. 685 F.3d at 996-98, 997 n.7. But the
Eleventh Circuit subsequently vacated and replaced that

25a
Appendix B
decision with an opinion resolving the dispute on different
grounds. See Application of Consorcio Ecuatoriano de
Telecomunicaciones S.A. v. JAS Forwarding (USA),
Inc. (“Consorcio II”), 747 F.3d 1262, 1270 n.4 (11th Cir.
2014) (vacating prior decision that concluded that private
arbitral forums were covered because that “substantial
question” was not clearly presented on the “sparse record”
before it). Thus, after Consorcio II, what remains, other
than the authorities that existed at the time of my decision
in Norfolk, is GEA’s acknowledgement that the question of
§ 1782’s scope is open in the Seventh Circuit. While district
courts have continued to answer the question differently,
including within this district, see, e.g., Kleimar, 2017 WL
3386115, at *5-6, the only two circuits that have directly
addressed § 1782’s applicability to private arbitration
proceedings hold that the statute does not so extend. NBC,
165 F.3d at 189; Biedermann, 168 F.3d at 883. Without
any intervening guidance from the Seventh Circuit or the
Supreme Court, my view therefore remains unchanged
from my opinion in Norfolk. Accordingly, I grant RollsRoyce’s motion [14] to vacate my November 19, 2018, order
[11] and to quash the resulting subpoena [12].4
ENTER ORDER:
/s/ Elaine E. Bucklo
Elaine E. Bucklo
United States District Judge
Dated: April 22, 2019
4. Because I agree with Rolls-Royce that § 1782 does not reach
purely private arbitrations, there is no need to address its other
arguments in support of its motion.

26a
Appendix
C
APPENDIX
C — STATUTE
28 U.S.C. § 1782
§ 1782. Assistance to foreign and international tribunals
and to litigants before such tribunals
Effective: February 10, 1996
(a) The district court of the district in which a person
resides or is found may order him to give his testimony
or statement or to produce a document or other thing for
use in a proceeding in a foreign or international tribunal,
including criminal investigations conducted before
formal accusation. The order may be made pursuant to
a letter rogatory issued, or request made, by a foreign
or international tribunal or upon the application of any
interested person and may direct that the testimony
or statement be given, or the document or other thing
be produced, before a person appointed by the court.
By virtue of his appointment, the person appointed has
power to administer any necessary oath and take the
testimony or statement. The order may prescribe the
practice and procedure, which may be in whole or part
the practice and procedure of the foreign country or
the international tribunal, for taking the testimony or
statement or producing the document or other thing. To
the extent that the order does not prescribe otherwise, the
testimony or statement shall be taken, and the document
or other thing produced, in accordance with the Federal
Rules of Civil Procedure.

27a
Appendix C
A person may not be compelled to give his testimony
or statement or to produce a document or other thing in
violation of any legally applicable privilege.
(b) This chapter does not preclude a person within
the United States from voluntarily giving his testimony
or statement, or producing a document or other thing, for
use in a proceeding in a foreign or international tribunal
before any person and in any manner acceptable to him.

